U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Hyundai Heavy Industries Co., Ltd. v. United States, et al., No. 20-1094
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 5,
2021. The government’s response is now due, after one extension, on April 12, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 12, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1094
HYUNDAI HEAVY INDUSTRIES CO., LTD.
USA, ET AL.

LUCIUS B. LAU
WHITE & CASE LLP
701 THIRTEENTH STREET, NW
WASHINGTON, DC 20005
202-626-3696
ALAU@WHITECASE.COM

